     Management Advisory Report




Single Audit of the State of Ohio for
the Fiscal Year Ended June 30, 2011




        A-77-13-00009 | May 2013
Single Audit of the State of Ohio for the Fiscal Year Ended
June 30, 2011
A-77-13-00009
May 2013                                                                    Office of Audit Report Summary

Objective                                   Finding

To report internal control weaknesses,      The single audit reported that RSC did not disburse Federal funds
noncompliance issues, and                   drawn for payroll within 3 days of receipt, as required by the Cash
unallowable costs identified in the         Management Improvement Act (CMIA) agreement.
single audit to Social Security
Administration (SSA) for resolution         Recommendation
action.
                                            We recommend that SSA verify that RSC is drawing and disbursing
Background                                  funds in accordance with the CMIA agreement.

The Ohio State Auditor conducted the
single audit of the State of Ohio. SSA
is responsible for resolving single audit
findings related to its Disability
Insurance program. The Rehabilitation
Services Commission (RSC) is the
Ohio Division of Disability
Determination’s parent agency.
MEMORANDUM
Date:      May 3, 2013                                                               Refer To:

To:        Gary S. Hatcher
           Senior Advisor
           Records Management and Audit Liaison Staff
From:      Inspector General
Subject:   Single Audit of the State of Ohio for the Fiscal Year Ended June 30, 2011 (A-77-13-00009)

           This report presents the Social Security Administration’s (SSA) portion of the single audit of the
           State of Ohio for the Fiscal Year ended June 30, 2011. 1 Our objective was to report internal
           control weaknesses, noncompliance issues, and unallowable costs identified in the single audit to
           SSA for resolution action.

           The Ohio State Auditor conducted the audit. The results of the desk review conducted by the
           Department of Health and Human Services (HHS) concluded that the audit met Federal
           requirements. In reporting the results of the single audit, we relied entirely on the internal
           control and compliance work performed by the Ohio State Auditor and the reviews performed by
           HHS. We conducted our review in accordance with the Council of the Inspectors General on
           Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.

           For single audit purposes, the Office of Management and Budget assigns Federal programs a
           Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability Insurance (DI) and
           Supplemental Security Income (SSI) programs are identified by CFDA number 96. SSA is
           responsible for resolving single audit findings reported under this CFDA number.

           The Ohio Division of Disability Determination (DDD) performs disability determinations under
           SSA’s DI and SSI programs in accordance with Federal regulations. The DDD is reimbursed for
           100 percent of allowable costs. The Rehabilitation Services Commission (RSC) is the Ohio
           DDD’s parent agency.




           1
            State of Ohio Single Audit for the Fiscal Year Ended June 30, 2011
           http://www.auditor.state.oh.us/auditsearch/Reports/2012/State_of_Ohio_Single_Audit_11_Franklin.pdf (last viewed
           April 10, 2013).
Page 2 - Gary S. Hatcher

The single audit reported that RSC did not disburse Federal funds drawn for payroll within
3 days of receipt, as required by the Cash Management Improvement Act (CMIA) agreement. 2
The corrective action plan indicates RSC revised its draw procedures for payroll to meet the
CMIA requirements. 3

We recommend that SSA verify that RSC is drawing and disbursing funds in accordance with
the CMIA agreement.

The single audit also disclosed that electronic user access was not appropriately restricted in the
Ohio Administrative Knowledge System, 4 which may impact DDD operations. Although it was
not specifically identified to SSA, I am bringing this matter to your attention as it represents a
potentially serious service delivery and financial control problem for the Agency.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you have
questions, contact Shannon Agee at (877) 405-7694, extension 18802.




                                                         Patrick P. O’Carroll, Jr.

Attachment

cc:
Lynn Bernstein




2
  This same finding was reported by the SSA Office of the Inspector General in the Administrative Costs Claimed by
the Ohio Division of Disability Determination (A-05-09-19127), September 2011.
http://oig.ssa.gov/sites/default/files/audit/full/pdf/A-05-09-19127.pdf (last viewed April 23, 2013).
3
    State of Ohio Single Audit for the Fiscal Year Ended June 30, 2011, supra at finding 2011-RSC01-057.
4
    Id. at finding 2011-OAKS01-002.
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
